APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Memorandum
Opinion
in the
Fourteenth Court of Appeals of Texas
(January 29, 2019) . . . . . . . . . . . . App. 1
Appendix B State’s Proposed Findings of Fact,
Conclusions of Law, and Order in the
351st District Court, Harris County,
Texas
(December 12, 2016) . . . . . . . . . . App. 20
Appendix C Orders
Denying
Petition for
Discretionary Review in the Criminal
Court of Appeals of Texas
(May 8, 2019). . . . . . . . . . . . . . . . App. 28
Appendix D Appellant’s Petition for Discretionary
Review of the Opinion of the
Fourteenth Court of Appeals
(March 29, 2019) . . . . . . . . . . . . . App. 31

App. 1

APPENDIX A
In The Fourteenth Court of Appeals
NO. 14-18-00027-CR
NO. 14-18-00028-CR
NO. 14-18-00029-CR
[Filed January 29, 2019]
_____________________________
EX PARTE
)
MARK DOUGLAS ROBISON )
_____________________________ )
Affirmed and Memorandum Opinion filed
January 29, 2019.
_______________________________________________
On Appeal from the 351st District Court
Harris County, Texas
Trial Court Cause Nos. 1324897-B,
1324898-B & 1324899-B
_______________________________________________
MEMORANDUM OPINION
In this appeal from an order denying habeas corpus
relief, we consider four claims of ineffective assistance
of counsel. For reasons explained more fully below, we
conclude that each claim is without merit. We therefore
affirm the habeas court’s order.

App. 2
BACKGROUND
The Trial. Appellant was charged with three
counts of possessing child pornography. Appellant
testified that he knowingly possessed the pornography,
but he claimed that his possession was for a bona fide
educational purpose, which is an affirmative defense to
prosecution. More specifically, appellant explained that
he possessed the pornography because he was
researching the scope of child sexual abuse, which he
aspired to end.
The prosecutor disputed the sincerity of this defense
by pointing out that appellant never discussed his
research until after he was indicted. For example,
appellant never notified law enforcement before
conducting his research, even though he knew that law
enforcement frequently tracked the online distribution
of child pornography. Similarly, appellant never
reached out to a university, a peer review group, or an
attorney before conducting his research. Also, he never
even alerted his wife about his research.
The prosecutor drew attention to other omissions
too. She established that appellant saved thousands of
pornographic images to his personal computer, but no
scholarly articles. She elicited testimony that appellant
chose to remain silent during the execution of a search
warrant, rather than explain to his investigators that
he possessed child pornography for a bona fide
educational purpose. She also elicited testimony that
appellant never mentioned his affirmative defense to
her during several pretrial hearings.

App. 3
The jury rejected appellant’s affirmative defense,
convicted him on all three counts, and recommended
that he receive a probated sentence.
The Direct Appeal. Appellant raised three issues
in his direct appeal to this court.
In his first issue, appellant argued that the trial
court had reversibly erred when it refused to admit two
of his self-published books into evidence. We assumed
for the sake of argument that the trial court had erred,
but we concluded that the error was harmless under
the standard for nonconstitutional error.
In his second issue, appellant asserted multiple
claims of ineffective assistance of counsel. He first
claimed that counsel was deficient by not moving to
strike biased members of the venire panel. We
concluded that this claim failed because the record did
not conclusively establish that the challenged
venirepersons were biased. Appellant argued next that
counsel was deficient because counsel did not object
when the prosecutor elicited testimony about
appellant’s pre-arrest silence, and because counsel
himself also elicited testimony about the same
pre-arrest silence. We concluded that these claims
failed because the testimony was admissible and
because a reasonable strategy could be imagined for
counsel’s actions. Finally, appellant argued that
counsel was deficient by failing to object to the
prosecutor’s criticism of appellant’s post-arrest silence
during the pretrial hearings. Even though the record
was silent as to counsel’s strategy, we concluded that
counsel was deficient because no reasonable
explanation could be imagined for the failure to object.

App. 4
However, we held that counsel’s deficiency did not
result in any prejudice.
In his third issue, appellant argued that the
prosecutor had engaged in several forms of misconduct
by making improper comments about appellant’s
pre-arrest and post-arrest silence. We held that this
issue was not preserved because counsel never objected
to any instance of alleged misconduct.
Having overruled all of appellant’s issues, we
affirmed the trial court’s judgment. See Robison v.
State, 461 S.W.3d 194, 207 (Tex. App.—Houston [14th
Dist.] 2015, pet. ref’d).
The Petition for Discretionary Review.
Appellant then petitioned for discretionary review
before the Texas Court of Criminal Appeals. He
asserted two grounds in his petition. First, he argued
that the court of appeals had erred by reviewing his
evidentiary challenge under the standard for
nonconstitutional error, instead of constitutional error.
Second, he argued that the court of appeals had erred
by holding that a claim of prosecutorial misconduct
required a timely objection.
Appellant did not raise a complaint about the
ineffective assistance of counsel, and the Court of
Criminal Appeals refused his petition without
comment.
The Habeas Proceedings. Appellant then filed an
application for writ of habeas corpus, in which he
asserted four claims of ineffective assistance of counsel.

App. 5
The first two claims had also been raised as issues
in the direct appeal. In these claims, appellant asserted
that counsel was deficient for failing to object when the
prosecutor referred to appellant’s pre-arrest and
post-arrest silence.
The third claim was a variation on an issue that
had been raised in the direct appeal. Appellant
asserted in this claim that counsel was deficient
because counsel did not present an argument to the
trial court that would make the exclusion of the
self-published books reviewable under the more
rigorous standard for constitutional error.
The fourth claim was entirely novel. Appellant
asserted that counsel was deficient by failing to present
expert testimony from two psychologists during the
guilt phase of the trial.
Counsel filed an affidavit, addressing his strategy
as to each of these claims. The habeas court credited
counsel’s explanations and denied relief without the
benefit of a live hearing. The habeas court also entered
written findings of fact and conclusions of law.
Appellant now appeals from the order denying
habeas corpus relief.
ANALYSIS
Standard of Review. To prevail on a claim of
ineffectiveness, appellant had the burden of proving by
a preponderance of the evidence that (1) his trial
counsel’s performance was deficient, in that it fell
below an objective standard of reasonableness; and
(2) but for counsel’s deficient performance, the outcome

App. 6
would have been different. See Strickland v.
Washington, 466 U.S. 668, 687 (1984). The habeas
court ruled that appellant did not satisfy this burden
with respect to any of his claims. To the extent that the
habeas court’s ruling was based on an evaluation of
credibility and demeanor, we review that ruling for an
abuse of discretion, affording almost total deference to
the court’s findings when they are supported by the
record. See Ex parte Torres, 483 S.W.3d 35, 42 (Tex.
Crim. App. 2016). To the extent that the ruling was
based on a pure question of law, or upon a mixed
question of law and fact not depending on an
evaluation of credibility and demeanor, our review is de
novo. See Ex parte De La Cruz, 466 S.W.3d 855, 866
(Tex. Crim. App. 2015).
Re-litigated Claims. The habeas court noted in its
findings of fact that appellant’s first two claims had
already been raised and rejected on direct appeal. The
habeas court further determined that relief should be
denied as to these claims because “issues raised and
rejected on direct appeal may not be reconsidered on a
post-conviction writ.” See Ex parte Schuessler, 846
S.W.2d 850, 852 n.6 (Tex. Crim. App. 1993) (“Habeas
corpus is traditionally unavailable to review matters
which were raised and rejected on appeal.”).
Appellant invokes an exception to the habeas court’s
rule, arguing that a claim may be re-litigated “where
direct appeal cannot be expected to provide an
adequate record to evaluate the claim in question, and
the claim might be substantiated through additional
evidence gathering in a habeas corpus proceeding.” See
Ex parte Torres, 943 S.W.2d 469, 475 (Tex. Crim. App.

App. 7
1997). Appellant believes this exception applies
because “the structure and design of the Texas system
. . . make it ‘virtually impossible’ for an ineffective
assistance claim to be presented on direct review.” See
Trevino v. Thaler, 569 U.S. 413, 417 (2013).
For the sake of argument, we will assume without
deciding that appellant was allowed to re-litigate his
claims, because the outcome is the same in either
event. We therefore proceed to the merits.
Pre-arrest Silence. When appellant testified
during the guilt phase of his trial, the prosecutor
elicited testimony that appellant had been less than
forthcoming when he met with investigators during the
execution of a search warrant, which occurred before
his arrest. The testimony established that appellant
never mentioned his alleged research to the
investigators when they were executing the search
warrant; that appellant terminated a voluntary
interview with the investigators and asked to speak to
an attorney; and that appellant never disclosed to the
investigators which of his personal computers
possessed the child pornography. The prosecutor
elicited similar testimony from the investigators, who
testified that, after a certain point in his interview,
appellant “didn’t want to talk anymore” and “he stated
he no longer wished to cooperate.” The prosecutor
emphasized all of this evidence in her closing
arguments.
In the direct appeal, we were asked to consider
whether counsel was deficient because counsel never
objected to any of these references to appellant’s
pre-arrest silence. We held that counsel was not

App. 8
deficient because “evidence of the defendant’s
pre-arrest and pre-Miranda silence . . . may be
admitted for purposes of impeachment without
violating the defendant’s Fifth Amendment right
against self-incrimination.” See Robison, 461 S.W.3d at
205. And in support of that holding, we cited to two
cases from the Texas Court of Criminal Appeals:
Salinas v. State, 369 S.W.3d 176 (Tex. Crim. App.
2012), aff’d, 570 U.S. 178 (2013) (plurality op.), and
Turner v. State, 719 S.W.2d 190 (Tex. Crim. App. 1986).
Appellant did not challenge our analysis in a motion
for rehearing or in his petition for discretionary review.
But in his application for writ of habeas corpus, he
disputed our reliance on Salinas, for apparently two
reasons. First, appellant noted that, in his case, the
evidence of pre-arrest silence was admitted for
impeachment purposes, whereas in Salinas, the
evidence of pre-arrest silence was admitted for
substantive purposes because the defendant there did
not testify. Second, appellant noted that when Salinas
was considered by the United States Supreme Court, a
majority of the justices there could not reach a
consensus as to whether the Fifth Amendment was
applicable to the use of a non-testifying defendant’s
pre-arrest silence.
These arguments fail for at least three reasons.
First, when we cited to Salinas, we were referring
to the majority opinion from the Texas Court of
Criminal Appeals, which is binding on us—not on the
plurality opinion from the United States Supreme
Court, which is not binding on us. See CTS Corp. v.
Dynamics Corp. of Am., 481 U.S. 69, 81 (1987) (“As the

App. 9
plurality opinion in MITE did not represent the views
of a majority of the Court, we are not bound by its
reasoning.”); Unkart v. State, 400 S.W.3d 94, 100 (Tex.
Crim. App. 2013) (“Plurality opinions do not constitute
binding authority.”).
Second, the majority opinion from the Texas Court
of Criminal Appeals clearly holds that evidence of
pre-arrest silence is admissible “regardless of whether
a defendant testifies.” See Salinas, 369 S.W.3d at 179
(“We hold that pre-arrest, pre- Miranda silence is not
protected by the Fifth Amendment right against
compelled self-incrimination, and that prosecutors may
comment on such silence regardless of whether a
defendant testifies.”).
And third, appellant totally failed to address our
citation to Turner, which involved evidence of
pre-arrest silence for impeachment purposes, exactly
like appellant’s case. See Turner, 719 S.W.2d at 193
(“The attorney for the State was correct in his
impeachment of the appellant through appellant’s
pre-arrest statements which failed to mention his alibi.
The fact that the appellant failed to inform the police
of his alibi on March 28 and April 7, 1983, when he had
an opportunity to do so, and in circumstances in which
he would be expected to speak out, was admissible to
impeach the appellant at trial.”).
In one final point, appellant asserts that “this Court
should order factual development on the issue to
determine counsel’s thinking.” But counsel has already
explained his thinking. Counsel testified in his
affidavit that he did not object to the prosecutor’s
comments about appellant’s pre-arrest silence because

App. 10
he believed that such evidence was admissible for
purposes of impeachment. Counsel was correct on that
point, for the reasons we have stated here and in
appellant’s direct appeal. The habeas court was also
correct in noting that “counsel cannot be found
ineffective for failing to object to admissible evidence.”
See Ex parte Jimenez, 364 S.W.3d 866, 887 (Tex. Crim.
App. 2012) (“The failure to object to proper questions
and admissible testimony . . . is not ineffective
assistance.”).
Post-arrest Silence. The prosecutor also remarked
on appellant’s post-arrest silence. More specifically, she
elicited testimony that appellant had appeared for
eleven pretrial hearings, and on each of those
occasions, he never once approached her to explain that
he had been researching child pornography for a bona
fide educational purpose.
On direct appeal, we held that counsel was deficient
by failing to object to this line of questioning. As we
explained:
Appellant may have had an opportunity to
approach the prosecutor and discuss the merits
of his defense, but he was under no legal
obligation to do so. See Franklin v. State, 606
S.W.2d 818, 848 (Tex. Crim. App. 1978) (op. on
reh’g) (“Merely having the opportunity to say
something does not constitute circumstances in
which one would be expected to speak out.”). The
pretrial hearings were conducted for the limited
purpose of resetting the case for a later date,
and appellant was represented by counsel
during each of the hearings. Appellant was

App. 11
entitled to rely on counsel’s representation and
avoid direct contact with the prosecutor, who
acted as his legal adversary. The prosecutor’s
line of questioning was neither relevant nor
appropriate, and we can think of no reason why
counsel would not object to the improper
criticisms of appellant’s in-court silence.
Robison, 461 S.W.3d at 206.
But we further explained that counsel’s deficiency
did not result in any prejudice:
The jury heard testimony that appellant was
silent during the execution of the search warrant
and that he had not mentioned to his wife that
he had been researching child pornography.
That evidence of pre-arrest silence, which was
admissible for impeachment purposes, had
already cast serious doubt on appellant’s
credibility. There is no reasonable likelihood
that the jury would have disregarded appellant’s
pre-arrest silence but not his in-court silence.
Id.
In response to appellant’s habeas application,
counsel offered the following explanation for his failure
to object:
I did not object to the prosecutor’s comments on
Mr. Robison’s post-arrest silence because the
defense has no duty to inform the State of its
available defenses. I did not want to alert the
State during pre-trial settings of the bona fide
educational affirmative defense (which, while

App. 12
certainly codified as an affirmative and available
defense, is rarely applied).
Appellant correctly observes that this explanation
misses the mark. The claim of ineffectiveness arises out
of counsel’s omissions during the trial on the merits
(when appellant’s defensive theory was already known
to the prosecutor), not during the pre-trial settings
(when the defensive theory may not have been known).
In any event, appellant could not prevail on this
claim of ineffectiveness without establishing that the
outcome of the trial would have been different but for
counsel’s failure to object. And as to that point,
appellant did not develop any new facts in the habeas
record that would alter our conclusion that he suffered
no prejudice. Considering the abundance of admissible
evidence that appellant had neglected to mention his
research to anyone before his arrest, there is no
reasonable likelihood that appellant’s post-arrest
silence moved the jury from a state of non-persuasion
to a state of persuasion.
In the absence of any new factual points, appellant
challenges our prejudice analysis with two new legal
points.
First, appellant argues that we were “wrong” on
direct appeal because the failure to object to post-arrest
silence is itself prejudicial, citing Hall v. State, 161
S.W.3d 142 (Tex. App.—Texarkana 2005, pet. ref’d).
But Hall is distinguishable because it involved
evidence of post-arrest silence only (not pre-arrest
silence too), and the defense attorney in that case was
found to be deficient in more ways than just his failure

App. 13
to object to the post-arrest silence. Id. at 152–55. Also,
the court of appeals in Hall conducted a full analysis of
prejudice. Id. at 155–56. The court of appeals did not
summarily conclude that the defendant was entitled to
relief due to counsel’s failure to object, as appellant
would seemingly have us do.
Second, appellant argues that the prejudice from
the post-arrest silence is cumulative of the prejudice
from the pre-arrest silence, and that we cannot point to
one error to excuse the other. This argument is fatally
flawed because it depends on the faulty premise that
counsel was deficient by not objecting to the evidence
of pre-arrest silence. As we explained in the direct
appeal and again in this opinion, counsel was not
deficient in that regard because the evidence of
pre-arrest silence was admissible.
Self-published Books. Counsel offered into
evidence two books that appellant authored and
self-published. The first book was a collection of poems
that appellant wrote nearly twenty years before child
pornography was discovered on his personal computer.
None of the poems expressly broached the subject of
child pornography, but some addressed themes such as
“right and wrong” and “nastiness” in the world.
The second book was an educational book that
appellant wrote after he was indicted. This book was
organized into three parts. The first part addressed
appellant’s personal relationship with child sexual
abuse. The second part addressed the societal problems
associated with child sexual abuse, including the harm
to the child and the proliferation of child pornography.

App. 14
The third part included proposals for tackling such
problems.
The prosecutor objected to both books on grounds of
relevancy and hearsay. Counsel responded that he was
not offering the books for the truth of the matter
asserted. Counsel also explained that the book of
poetry was relevant because it showed that appellant
was trying “to get the word out.” As for the educational
book, counsel explained:
It’s directly relevant as to our affirmative
defense as to educational use. [Appellant] has
published a document relating to this. The jury
can weigh the credibility as to whether it’s bona
fide or not. But he specifically talks about child
pornography, specifically talks about child
sexual abuse, references acts that are—most
people would classify as that. So, it’s part and
parcel of our defense.
On direct appeal, we assumed without deciding that
the trial court had erred by excluding the books. But
we held that the errors were harmless under the
standard for nonconstitutional error because the books
were cumulative of other evidence. We explained that
appellant had testified at length about the contents of
his books. We also noted that appellant had produced
evidence that he co-hosted a radio program and created
a website, both of which were aimed at spreading
awareness of child sexual abuse. “Thus,” we held, “the
jury was still able to consider whether appellant
possessed the child pornography for a bona fide
educational purpose.” See Robison, 461 S.W.3d at
201–02.

App. 15
In his habeas application, appellant asserted that
counsel was deficient because counsel did not
specifically argue that the exclusion of appellant’s
books amounted to a constitutional violation. Appellant
asserted that if counsel had made that argument—for
example, by objecting that the exclusion deprived him
of his constitutional right to present a defense—then
the exclusion of his books would have been reviewable
under the standard for constitutional error, instead of
nonconstitutional error.
Counsel did not directly respond to appellant’s claim
in his affidavit. Instead of addressing the distinction
between the two standards for reversible error in
criminal cases, counsel merely explained his actions as
follows: “I believe I properly invoked Rule 401 of the
Texas Rules of Evidence and sufficiently stated my
reasons for offering the books into evidence, thereby
preserving the complaint for appellate review.”
The habeas court found that counsel’s actions were
appropriate, and we agree for the reasons stated in our
opinion on direct appeal.
Also, we conclude that appellant’s new arguments
in this appeal are meritless. Contrary to appellant’s
suggestions, we would not have reviewed his
evidentiary complaints under the more rigorous
standard for constitutional error if counsel had worded
his objection differently. “The exclusion of a defendant’s
evidence will be constitutional error only if the
evidence forms such a vital portion of the case that
exclusion effectively precludes the defendant from
presenting a defense.” Potier v. State, 68 S.W.3d 657,
665 (Tex. Crim. App. 2002). As we explained in the

App. 16
direct appeal, appellant was not deprived of the right
to present a defense because “the jury was still able to
consider whether appellant possessed the child
pornography for a bona fide educational purpose.” See
Robison, 461 S.W.3d at 201–02; see also Vasquez v.
State, 501 S.W.3d 691, 700 (Tex. App.—Houston [14th
Dist.] 2016, pet. ref’d) (rejecting a similar argument
that the exclusion of evidence was reviewable under
the standard for constitutional error).
Expert Testimony. Counsel called two
psychologists during the punishment phase of
appellant’s trial. The primary purpose of the
psychologists’ testimony was to establish that appellant
was not at risk for harming children, and that he would
be a good candidate for a sex-offender treatment
program while on community supervision.
The psychologists addressed other matters too. They
said that appellant admitted to knowingly possessing
child pornography, and they indicated that it was
possible for a person to possess such pornography
without being physically or sexually aroused.
Appellant asserted in his habeas application that
counsel was deficient by not calling the same two
psychologists during the guilt phase of trial. According
to appellant, the psychologists’ testimony that a person
could possess child pornography without being aroused
by it would have supported a finding that he possessed
his pornography for a bona fide educational purpose.
Counsel filed a response affidavit, which gave the
following explanation for his actions:

App. 17
My trial strategy involving the two expert
witnesses was very straightforward. [The
psychologists] were called for the sole and
express separate and respective purposes of
providing a sex offender diagnostic assessment
and then therapist’s treatment. They were not
consulted on providing expert testimony on Mr.
Robison’s claims of a bona fide educational
purpose for viewing child pornography. [The
psychologists] were integral to the overall
defense of blunting the State’s attack that Mr.
Robison presented a clear and present danger
within the community, and to show that there
was absolutely no clinical support whatsoever
for the State’s comments that Mr. Robison was
actually assaulting or could potentially assault
children. Was Mr. Robison gathering
computer-based images admittedly containing
child pornography? Yes. Were those images then
fueling later actions of assault against children?
No. During guilt-innocence, the experts’
testimony would have had to specifically
addresses these issues, which [were] outside the
scope of their engagement: (1) for a bona fide
educational use of child pornography, were they
aware that Mr. Robison had never approached
law enforcement before he decided to investigate
child pornography?; (2) for a bona fide
educational use of child pornography, were they
aware that Mr. Robison had made no attempt to
contact any university, peer review group, or any
attorney for guidance before or during his
“research” into child pornography; (3) for a bona
fide educational use of child pornography, were

App. 18
they aware that Mr. Robison had failed to even
alert his wife about his desire to research the
issue of child pornography (as evidenced by his
wife’s comments that she was unaware that he
had been downloading child pornography); and
(4) for a bona fide educational use of child
pornography, were they aware that despite
saving literally thousands of child pornographic
images to his computer, he had written no
scholarly peer reviewed articles on this subject?
The habeas court expressly found that counsel’s
trial strategy was reasonable.
Now on appeal, appellant challenges counsel’s
explanation by arguing that counsel was deficient by
not enlarging the scope of the psychologists’
engagement to include these other areas of discussion.
This argument fails for two reasons.
First, the habeas court found that both
psychologists had formed a preliminary diagnosis of
appellant as “a possible pedophile.” The habeas court
also found that if the psychologists had been called to
testify during the guilt phase of trial, this diagnosis
would have been revealed to the jury. Counsel could
have reasonably determined that the jury should not
know this diagnosis when it was deciding appellant’s
guilt.
Second, the habeas court found that appellant “gave
lengthy testimony during guilt-innocence as to his
reasons for possessing child pornography, and the jury
was free to disbelieve those reasons.” Because the
psychologists’ testimony would have been cumulative

App. 19
at best, the habeas court found that appellant had not
shown a reasonable likelihood of a different outcome.
Appellant offers no challenge to this finding, which is
supported by the record. Deferring to this finding as we
must, we conclude that appellant failed to prove his
claim of ineffective assistance of counsel.
CONCLUSION
The habeas court’s order is affirmed.
/s/ Tracy Christopher
Justice
Panel consists of Justices Christopher, Bourliot, and
Spain.
Do Not Publish — Tex. R. App. P. 47.2(b).

App. 20

APPENDIX B
IN THE 351ST DISTRICT COURT
HARRIS COUNTY, TEXAS
NO. 1324897-B, 1324898-B, 1324899-B
[Filed December 12, 2016]
_______________________
EX PARTE
)
)
MARK ROBISON,
)
Applicant
)
_______________________ )
STATE’S PROPOSED FINDINGS OF FACT,
CONCLUSIONS OF LAW, AND ORDER
The Court has considered the application for writ of
habeas corpus, official court records in the abovecaptioned cause, and filings by all parties. The Court
recommends that the relief requested be denied for the
following reasons:
1.
The applicant was charged with three counts
of possession of child pornography in Harris County,
Texas cause numbers 1324897, 1324898, 1324899 ( the
primary cases)
2.
The applicant was represented in the primary
cases by retained counsel Thomas Martin. The court
finds from the affidavit of Thomas Martin that he was
hired in late 2011 or early 2012 and that he

App. 21
represented applicant at pretrial settings as well as at
trial.
3.
The applicant pled not guilty to the primary
cases and the primary cases proceeded to jury trial.
4.
The jury found the defendant guilty and
sentenced the applicant to a probated sentence often
(10) years and a $10,000.00 fine
5.
The Fourteenth Court of Appeals affirmed
the applicant’s conviction in an opinion delivered on
January 22, 2015. Robison v. State, 461 S.W.3d 194
(Tex. App.—Houston [14th Dist.] Jan. 22, 2015, pet.
Ref’d).
6.
The United States Supreme Court held in
Strickland v. Washington, 466 U.S. 668, 686 (1984),
that the benchmark for judging any claim of ineffective
assistance of counsel is whether counsel’s conduct so
undermined the proper functioning of the adversarial
process that the trial cannot be relied upon as having
produced a just result. The Court in Strickland set
forth a two-part standard, which has been adopted by
Texas. See Hernandez v. State, 726 S.W.2d 53, 57 (Tex.
Crim. App. 1986). First, the defendant must prove by
a preponderance of the evidence that counsel’s
performance was deficient, i.e., that counsel’s
representation fell below an objective standard of
reasonableness. Mitchell v. State, 68 S. W.3d 640, 642
(Tex. Crim. App. 2002); Narvaiz v. State, 840 S.W.2d
415, 434 (Tex. Crim. App. 1992)( citing Strickland, 466
U.S. at 688). Second, there must be a reasonable
probability that, but for counsel’s unprofessional errors,

App. 22
the result of the proceeding would have been different.
Strickland, 466 U.S. at 694.
7.
The applicant first claims Martin failed to
object to the prosecutor’s comments on the applicant’s
pre-arrest silence. Applicant’s Writ at 6-7.
8.
The applicant claimed on his direct appeal
that Martin was ineffective for allowing evidence of
silence to be elicited at the applicant’s trial. Robison,
461 S.W.3d at 202.
9.
The appellate court rejected that claim. The
appellate court held that evidence of the applicant’s
pre-arrest and pre-Miranda silence could be used for
purposes of impeachment without violating the
applicant’s Fifth Amendment right against selfincrimination. Id. at 205. The appellate court found
that Martin had no reason to object to the prosecutor’s
comments regarding the applicant’s pre-arrest silence.
Id. Indeed, trial counsel cannot be found ineffective for
failing to object to admissible evidence. See McFarland
v. State, 845 S.W.2d 824, 846 (Tex. Crim. App. 1992).
10.
Issues raised and rejected on direct appeal
may not be reconsidered on a post-conviction writ. Ex
parte Schuessler, 846 S.W.2d 850 (Tex. Crim. App.
1993); Ex parte Acosta, 672 S.W.2d 470, 472 (Tex. Crim.
App. 1984). Because the applicant has failed to show
that Martin was deficient, the applicant’s claim should
be denied.
11.
The applicant next claims Martin failed to
object to the prosecutor’s comments on the applicant’s
post-arrest silence. Applicant’s Writ at 8.

App. 23
12.
The applicant claimed on his direct appeal
that Martin was ineffective for allowing evidence of the
applicant’s post-arrest silence to be elicited at the
applicant’s trial. Robison, 461 S.W.3d at 206. Again,
the appellate court rejected that claim.
13.
While the appellate court recognized that
Martin was deficient for failing to object to this
evidence, it held that the applicant cannot show that he
was prejudiced by that error.1 Id. The applicant’s claim
should be denied.
14. The applicant claims Martin failed to object to
the trial court’s exclusion of books authored by the
applicant on constitutional grounds that it deprived the
applicant of his right to present a defense. Applicant’s
Writ at 10-11.
15.
Similarly, on direct appeal, the applicant
claimed that the trial court reversibly erred by
excluding these books, and that these books were
essential to establishing the applicant’s affirmative
defense. Robison, 461 S.W.3d at 200. The appellate
court rejected that claim as well. The appellate court
held that because the applicant was able to discuss his
interest in writing about sexual abuse, exclusion of
these books was harmless because the nature of the
evidence was established through other means. Id.

1

Notwithstanding the prosecutor’s comments on the applicant’s
post-arrest silence, the jury had already heard testimony that cast
doubt on the applicant’s credibility. They heard the applicant was
silent during the execution of the search warrant and that he had
not mentioned to his wife that he had been researching child
pornography. Robison, 461 S.W.3d at 206.

App. 24
16.
The appellate court further stated that the
admission of these books would have been cumulative
of the evidence already established through live
testimony. Id at 201-202. The court reasoned that even
without the books being admitted into evidence, the
jury was still able to consider whether the applicant
possessed child pornography for a bona fide educational
purpose. Id.
17.
Furthermore, the appellate court held that
Martin sufficiently stated the reasons for offering the
books into evidence, and that he properly preserved his
complaint for appellate review. Id. at 201. Because
Martin objected to the exclusion of these books and
properly preserved the issue for appeal, the applicant
fails to show Martin was deficient or that he was
prejudiced by Martin’s deficiency. The applicant’s claim
should be denied.
18.
The applicant finally claims Martin failed to
call as witnesses Dr. Saunders and Dr. Luepnitz in the
applicant’s case-in-chief during guilt-innocence.
Applicant’s Writ at 12-13.
19.
For this type of claim, the applicant must
show that these witnesses were available and that
their testimony would have been of some benefit to the
defense. See King v. State, 649 S.W.2d 42 (Tex. Crim.
App. 1983).
20.
During the applicant’s case-in-chief, Martin
called the applicant and the applicant’s wife Debra
Robison (IV R.R. at 40-97, 140-156).
21.
The applicant testified at length that he only
possessed child pornography for purposes of

App. 25
understanding the scope of the problem of child sexual
abuse, i.e., for a bona fide educational purpose (IV R.R.
at 40-97).
22.
The applicant’s wife testified that she cowrote a book with the applicant addressing the problem
of child sexual abuse and child pornography, that they
started a website for people who had been abused to
share their stories, and that they hosted a radio show
addressing child sexual abuse (IV R.R. at 140-156).
23.
During the punishment phase, Martin called
Saunders and Luepnitz to testify regarding their
treatment approaches, the applicant’s candidacy for the
sex offender treatment program, and their belief that
the applicant had not acted on any fantasies (VI R.R. at
7-51, 64-70, 71-92).
24.
Saunders testified that most participants in
the program begin treatment without a disclosure of
sexual interest in children, and that the applicant
expectedly denied a sexual interest in children but
admitted to possessing child pornography (VI R.R. at
39-40).
25.
Saunders also testified that the applicant’s
denial of sexual arousal to children could indicate
deception, and would also be at odds with his initial
diagnosis of the applicant as a possible pedophile (VI
R.R. at 53-54, 58-59, 70).
26.
Luepnitz testified that he treated the
applicant in fourteen pretrial sessions, and that while
the applicant admitted an addiction to adult
pornography, he engaged in denial, minimization, and
justification to sexual arousal from child pornography

App. 26
(VI R.R. at 82-84). Luepnitz testified that his
preliminary diagnosis of the applicant was a possible
pedophile (VI R.R. at 91).
27.
While the applicant can show Saunders and
Luepnitz were available, he fails to show that their
testimony would have been of some benefit to the
defense. When evaluating whether there would have
been “some benefit,” the correct standard is whether
that evidence establishes a reasonable probability that
the result would have been different, and a reasonable
probability is one “sufficient to undermine confidence
in the outcome.” Ex parte Flores, 387 S.W.3d 626, 638
(Tex. Crim. App. 2012).
28.
Saunders and Luepnitz could have testified
to their beliefs that the applicant had not acted on any
of his fantasies and that it is possible for a person to
possess child pornography and not be sexually aroused,
but they would have also had to testify to their
classification of the applicant as a possible pedophile.
29.
Moreover, the applicant gave lengthy
testimony during guilt-innocence as to his reasons for
possessing child pornography, and the jury was free to
disbelieve those reasons. The applicant fails to show
that had Martin called these additional witnesses
during guilt-innocence, there is a reasonable
probability that the result would have been different.
As such, the applicant’s claim should be denied.
30.
The court finds from the affidavit of Thomas
Martin that he had a reasonable trial strategy for
failing to object to the prosecutor’s comments on the
applicant’s post-arrest silence.

App. 27
31.
The court finds from the affidavit of Thomas
Martin that he had a reasonable trial strategy for
failing to call Dr. Saunders and Dr. Luepnitz in the
applicant’s case-in-chief during guilt-innocence to
support applicant’s defense that he possessed child
pornography for a bona fide educational purpose.
32.
In all things, the applicant has failed to
demonstrate that his conviction was improperly
obtained or that he is being improperly confined.
ORDER
Habeas corpus relief is denied.
SIGNED and ENTERED on 12-12, 2016

/s/
Presiding Judge, 351st District Court

App. 28

APPENDIX C
OFFICIAL NOTICE FROM COURT OF
CRIMINAL APPEALS OF TEXAS
P.O. BOX 12308, CAPITOL STATION,
AUSTIN, TEXAS 78711
COA No. 14-18-00027-CR
Tr. Ct. No. 1324897-B
PD-0184-19
[Filed May 8, 2019]
__________________________
ROBISON, EX PARTE
)
MARK DOUGLAS
)
__________________________ )
On this day, the Appellant’s petition for discretionary
review has been refused.
Deana Williamson, Clerk
14TH COURT OF APPEALS CLERK
CHRISTOPHER A. PRINE
301 FANNIN, SUITE 245
HOUSTON, TX 77002-7006
* DELIVERED VIA E-MAIL *

App. 29
OFFICIAL NOTICE FROM COURT OF
CRIMINAL APPEALS OF TEXAS
P.O. BOX 12308, CAPITOL STATION,
AUSTIN, TEXAS 78711
COA No. 14-18-00028-CR
Tr. Ct. No. 1324898-B
PD-0185-19
[Filed May 8, 2019]
__________________________
ROBISON, EX PARTE
)
MARK DOUGLAS
)
__________________________ )
On this day, the Appellant’s petition for discretionary
review has been refused.
Deana Williamson, Clerk
14TH COURT OF APPEALS CLERK
CHRISTOPHER A. PRINE
301 FANNIN, SUITE 245
HOUSTON, TX 77002-7006
* DELIVERED VIA E-MAIL *

App. 30
OFFICIAL NOTICE FROM COURT OF
CRIMINAL APPEALS OF TEXAS
P.O. BOX 12308, CAPITOL STATION,
AUSTIN, TEXAS 78711
COA No. 14-18-00029-CR
Tr. Ct. No. 1324899-B
PD-0186-19
[Filed May 8, 2019]
__________________________
ROBISON, EX PARTE
)
MARK DOUGLAS
)
__________________________ )
On this day, the Appellant’s petition for discretionary
review has been refused.
Deana Williamson, Clerk
14TH COURT OF APPEALS CLERK
CHRISTOPHER A. PRINE
301 FANNIN, SUITE 245
HOUSTON, TX 77002-7006
* DELIVERED VIA E-MAIL *

App. 31

APPENDIX D
IN THE COURT OF CRIMINAL APPEALS
AUSTIN, TEXAS
NOS. PD-0184-19, PD-0185-19, PD-0186-19
[Filed March 29, 2019]
_____________________________
EX PARTE
)
MARK DOUGLAS ROBISON
)
_____________________________ )
APPELLANT’S PETITION FOR DISCRETIONARY REVIEW
OF THE OPINION OF THE FOURTEENTH COURT OF APPEALS
NOS. 14-18-00027-CR, 14-18-00028-CR,
14-18-00029-CR
___________________________________________
GARY A. UDASHEN
STATE BAR NO. 20365990
gau@sualaw.com
BRETT ORDIWAY
STATE BAR NO. 24079086
brett@udashenanton.com
UDASHEN | ANTON
2311 Cedar Springs Road
Suite 250
Dallas, Texas 75201
214-468-8100 (office)
214-468-8104 (fax)
Counsel for Appellant

App. 32
IDENTITY OF PARTIES AND COUNSEL
For Appellant Mark Douglas Robison:
Thomas Martin
Trial counsel
617 Caroline Street, Suite 300
Houston, Texas 77002
Gary A. Udashen and Brett Ordiway
Counsel on Writ Application and Appeal
Udashen | Anton
2311 Cedar Springs Road, Suite 250
Dallas, Texas 75201
For Appellee the State of Texas:
Kim Ogg
District Attorney
Clint Morgan and Lacey Johnson
Assistant District Attorneys
1201 Franklin Street, Suite 600
Houston, Texas 77002
Trial Judge:
The Honorable Mark Kent Ellis
351st District Court of Harris County, Texas

App. 33
TABLE OF CONTENTS
PAGE
IDENTITY OF THE PARTIES AND COUNSEL . . . . . . . . . . i
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . ii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . . . iii-iv
STATEMENT REGARDING ORAL ARGUMENT . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF THE PROCEDURAL HISTORY . . . . . . . . 1
GROUND FOR REVIEW ONE . . . . . . . . . . . . . . . . . . . . . 2
The Court of Appeals incorrectly applied the
harm element of the ineffective assistance of
counsel test in analyzing whether defense
counsel’s failure to object to the prosecutor’s
comments on Robison’s post-arrest silence was
ineffective.
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
GROUND FOR REVIEW TWO . . . . . . . . . . . . . . . . . . . . . 9
The Court of Appeals incorrectly decided that an
application of the constitutional error standard
to the exclusion of crucial defense evidence
submitted by Robison would not have resulted in
a reversal of this conviction.
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
PRAYER FOR RELIEF . . . . . . . . . . . . . . . . . . . . . . . . . 14

App. 34
CERTIFICATE OF SERVICE . . . . . . . . . . . . . . . . . . . . . 15
CERTIFICATE OF COMPLIANCE . . . . . . . . . . . . . . . . . . 16

App. 35
TABLE OF AUTHORITIES
CASES

PAGE

Ex parte Martinez,
330 S.W.3d 891 (Tex. Crim. App. 2011) . . . . . . . . 3
Franklin v. State,
606 S.W.2d 818 (Tex. Crim. App. 1978) . . . . . . . . 4
Hall v. State,
161 S.W.3d 142 (Tex. App.—Texarkana 2005,
pet. ref’d) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4, 5
Hernandez v. State,
726 S.W.2d 53 (Tex. Crim. App. 1986) . . . . . . . . . 6
Lockhart v. Fretwell,
506 U.S. 364 (1993). . . . . . . . . . . . . . . . . . . . . . 7, 8
Miller v. State,
939 S.W.2d 681 (Tex.App.–El Paso 1996, no
pet). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
Nix v. Whiteside,
475 U.S. 157 (1986). . . . . . . . . . . . . . . . . . . . . . 7, 8
Potier v. State,
68 S.W.3d 657 (Tex. Crim. App. 2002) . . . . . 12, 13
Powell v. Alabama,
287 U.S. 45 (1932). . . . . . . . . . . . . . . . . . . . . . . . . 6
Robison v. Georgia,
365 U.S. 570 (1961). . . . . . . . . . . . . . . . . . . . . . . . 6

App. 36
Robison v. State,
461 S.W.3d 194 (Tex. App.—Houston [14th
Dist.] 2015, pet. ref’d) . . . . . . . . . . . . . . . . 4, 11, 12
Strickland v. Washington,
466 U.S. 668 (1984). . . . . . . . . . . . . . . . . . . . 6, 7, 8
Strickler v. Greene,
527 U.S. 263 (1999). . . . . . . . . . . . . . . . . . . . . . . . 8
Vasquez v. State,
501 S.W.3d 691 (Tex. App. - Houston [14th Dist.]
2016, pet. ref’d) . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Woodford v. Visciotti,
537 U.S. 19 (2002). . . . . . . . . . . . . . . . . . . . . . . .

7

CODES AND RULES
TEX. CODE CRIM. PROC., Art. 11.072 . . . . . . . . . . . . . 1
TEX. R. APP. P. 44.2(a) . . . . . . . . . . . . . . . . . . . . . . . 12
TEX. R. APP. P. 44.2(b) . . . . . . . . . . . . . . . . . . . . . . . 11
TEX. R. APP. P. 66.3(b) . . . . . . . . . . . . . . . . . . . . . . . 14
TEX. R. APP. P. 66.3(c) . . . . . . . . . . . . . . . . . . . . . . . . 8

App. 37
STATEMENT REGARDING ORAL ARGUMENT
This case involves complex issues of fact and law.
Oral argument will assist the Court and is requested.
STATEMENT OF THE CASE
The Court of Appeals found that defense counsel
was deficient in his representation by failing to object
to the prosecutor questioning Robison about his postarrest silence. However, the Court found that no
prejudice was shown. In reaching this conclusion, the
Court misapplied the prejudice element of the
ineffective assistance test.
Additionally, the Court of Appeals applied a very
narrow test in determining what constitutes
constitutional error when admissible evidence is
erroneously excluded by the trial court. Had the proper
test for constitutional error been applied, the Court
would have been compelled to find that defense counsel
was ineffective in not making a constitutional objection
to the exclusion of Robison’s defense evidence.
STATEMENT OF THE
PROCEDURAL HISTORY
Appellant, Mark Douglas Robison, filed an
Application for Writ of Habeas Corpus pursuant to Art.
11.072, Tex. Code Crim. Proc. challenging his
convictions for possession of child pornography in cause
numbers 1324897, 1328498 and 1324899. On December
12, 2016, the trial court denied these applications
without any notice to Robison or his counsel.
Subsequently, Robison requested habeas relief so that
his notice of appeal would be considered timely. This

App. 38
request was granted by the trial court. Appeal was
taken to the Fourteenth Court of Appeals, which
affirmed the order of the trial court denying relief on
January 29, 2019. No motion for rehearing was filed.
GROUND FOR REVIEW ONE
The Court of Appeals incorrectly applied the harm
element of the ineffective assistance of counsel test in
analyzing whether defense counsel’s failure to object to
the prosecutor’s comments on Robison’s post-arrest
silence was ineffective.
ARGUMENT
During Robison’s testimony, the prosecutor asked
him about his failure to assert his defensive theory at
various pre-trial hearings:
[Prosecutor]: So, on all those dates that you and
I were in court together, which one of them did
you tell me about this research that you’ve been
doing?
[Robison]: Under advice of counsel, which I–we
discussed this in depth and I wanted to use this
and bring this forward to you but counsel
advised otherwise, so we did not discuss this.
[Prosecutor]: Well, you mentioned a phrase a little
earlier where you said the game was afoot. Do you
remember when you said that?
[Robison]: Yes.
[Prosecutor]: So, are you having fun with your
game with the jury here?

App. 39
[Robison]: No, but I think there’s a chance,
respectfully, that you are.
[Prosecutor]: Oh. I appreciate your candor.
Thank you.
[Robison]: I’m trying to be respectful. I have a
history with –my son has some legal issues, so
yes, I do have some, perhaps, unproductive
feelings about the judicial process. For example,
it’s been –
[Prosecutor]: We’ll get to that in just a moment
if you can answer my questions, please, sir. Now,
all those times you said on the advice of counsel
you didn’t talk to anyone, right? All those
different resets, you didn’t talk to –
[Robison]: You used the word “anyone.” That’s
not accurate. I didn’t talk to you particularly
about his.
[Prosecutor]: You saw me in court every time.
[Robison]: Yeah, I don’t believe you ever spoke to
me either, sir.
[Prosecutor]: Well, rules are a little different
between me and you, correct? You’d agree with
that?
[Robison]: I don’t know the legal rules. (RR4:10507)
Even though this was an improper comment on
Robison’s post-arrest, in court silence, Robison’s
counsel did not object. Based on the failure of counsel

App. 40
to object, Robison argued that he received ineffective
assistance of counsel.
As to this ground, on direct appeal, the Fourteenth
Court of Appeals agreed counsel’s failure was
objectively unreasonable:
Appellant may have had an opportunity to
approach the prosecutor and discuss the merits
of his defense, but he was under no legal
obligation to do so. See Franklin v. State, 606
S.W.2d 818, 848 (Tex. Crim. App. 1978) (op. on
reh’g) (“Merely having the opportunity to say
something does not constitute circumstances in
which one would be expected to speak out.”). The
pretrial hearings were conducted for the limited
purpose of resetting the case for a later date,
and appellant was represented by counsel
during each of the hearings. Appellant was
entitled to rely on counsel’s representation and
avoid direct contact with the prosecutor, who
acted as his legal adversary. The prosecutor’s
line of questioning was neither relevant nor
appropriate, and we can think of no reason why
counsel would not object to the improper
criticisms of appellant’s in-court silence.
Robison, 461 S.W.3d at 206.2 And the court was right.
See Hall, supra (“We cannot envision a reason for
counsel’s failure to…object to comments by the State
about Hall’s post-arrest silence.”). The court was “not
persuaded, however, that the outcome of the trial
2

On the current appeal, the Court reiterated that counsel should
have objected to this line of questioning. (p. 9).

App. 41
would have been different but for counsel’s failure to
object.” Id. “The jury [had already] heard testimony
that [Robison] was silent during the execution of the
search warrant and that he had not mentioned to his
wife that he had been researching child pornography,”
the court noted. Id. From this, the court reasoned
“[t]here is no reasonable likelihood that the jury would
have disregarded appellant’s pre-arrest silence but not
his in-court silence.” Id. (citing Miller v. State, 939
S.W.2d 681, 691 (Tex.App.–El Paso 1996, no pet)
(defendant was not prejudiced by counsel’s failure to
object to evidence of post-arrest silence where the
record contained other evidence that amply refuted the
defendant’s claim of self-defense)).3
Ultimately, the Court of Appeals found the
prejudice prong of the ineffective assistance test not
established, stating the following:
“In any event, appellant would not prevail on
this claim of ineffectiveness without establishing
that the outcome of the trial would have been
different but for counsel’s failure to object.” p.
10.
However, in stating its rationale for finding no
ineffectiveness, the Court of Appeals has incompletely
and improperly applied the prejudice prong of the
ineffective assistance test.
It is, of course, well-established that a criminal
defendant has a Sixth Amendment right to effective
3

Again, on the instant appeal, the Court restated this conclusion
from the direct appeal. (pp. 9-10).

App. 42
assistance of counsel at every critical stage of the
proceedings against him. Powell v. Alabama, 287 U.S.
45, 69 (1932). This right extends to state prisoners
through the Fourteenth Amendment. Robison v.
Georgia, 365 U.S. 570, 596 (1961).
To determine whether to grant relief for ineffective
assistance of counsel, Texas courts, like all others,
apply the standard set forth by the Supreme Court in
Strickland v. Washington, 466 U.S. 668 (1984). See,
e.g., Ex parte Martinez, 330 S.W.3d 891, 900 (Tex.
Crim. App. 2011); Hernandez v. State, 726 S.W.2d 53,
55–56 (Tex. Crim. App. 1986). Strickland requires
defendants claiming they received ineffective
assistance of counsel to establish two components by a
preponderance of the evidence: (1) deficient
performance of trial counsel; and (2) but for counsel’s
errors, there is a “reasonable probability” of a different
outcome at trial. Strickland, 466 U.S. at 687.
To establish deficient performance, a petitioner
must demonstrate that counsel’s representation “fell
below an objective standard of reasonableness.” Id. at
688. The Supreme Court has declined to articulate
specific guidelines for appropriate attorney conduct and
instead has emphasized that “[t]he proper measure of
attorney performance remains simply reasonableness
under prevailing professional norms.” Id. Essentially,
counsel is obliged to fulfill “certain basic duties,”
including “a duty to bring to bear such skill and
knowledge as will render the trial a reliable adversarial
testing process.” Id. at 688.
As to the second Strickland requirement—an
applicant must also demonstrate that, but for counsel’s

App. 43
errors, there is a “reasonable probability” of a different
outcome at trial—a reasonable probability is but a
probability sufficient to undermine confidence in the
outcome. Id. at 692-94. An applicant need not establish
that his attorney’s deficient performance more likely
than not altered the outcome in order to establish
prejudice. Nix v. Whiteside, 475 U.S. 157, 175 (1986).
“[Strickland] specifically rejected the proposition that
the [applicant] had to prove it more likely than not that
the outcome would have been altered.” Woodford v.
Visciotti, 537 U.S. 19, 22 (2002). “[T]he touchstone of an
ineffective-assistance claim is the fairness of the
adversary proceeding.” Lockhart v. Fretwell, 506 U.S.
364 (1993). The question is not whether Robison would
more likely than not have received different verdicts
with the evidence, but whether, in its absence, he
received a fair trial, understood as a trial resulting in
verdicts worthy of confidence. Strickler v. Greene, 527
U.S. 263, 289-90 (1999).
Thus, while the Court of Appeals correctly analyzed
the first prong of the Strickland test - deficient
performance - the Court has incorrectly applied the
second prong - prejudice, by simply finding that
Robison has not established that the outcome of the
trial would have been different. According to
Strickland, Nix, Lockhart, and Strickler, it is not
necessary that Robison show that he would have been
acquitted. Rather, he is only required to show that the
ineffective performance of counsel affected the fairness
of the adversary proceeding, and that the result was a
trial not resulting in a verdict worthy of confidence.

App. 44
In the case at bar, the Court of Appeals has
misapplied the law and rendered a decision in conflict
with the applicable caselaw from the U. S. Supreme
Court. Moreover, the analytical error by the Court of
Appeals is one that is routinely made by Texas courts.
For this reason, this Petition for Discretionary Review
should be granted in order that the Court of Criminal
Appeals can address and correct this error, as well as
give guidance to the lower courts on the proper
application of the prejudice prong of the ineffective
assistance test. T. R. App. P. 66.3(c).
GROUND FOR REVIEW TWO
The Court of Appeals incorrectly decided that an
application of the constitutional error standard to the
exclusion of crucial defense evidence submitted by
Robison would not have resulted in a reversal of this
conviction.
ARGUMENT
During the guilt-innocence phase of the trial,
defense counsel sought to introduce two books written
by Robison. (RR4: 65). Robison began writing the first
book, titled Man to Man: Poems for Men, in 1990 and
published it in 1992. Men. (RR4: 65); (DX1). The State
objected on relevance and hearsay grounds, to which
defense counsel argued that the book “forms his initial
beliefs as to communicating and starting to get the
word out. That’s the only reason I’m offering this
booklet. It goes heart and soul into the affirmative
defense, the wording.” (RR4: 67). Counsel further
explained that in the book Robison began to talk about
“nasty people and allegations of abuse.” (RR4: 66-67).

App. 45
In a poem titled “Nasty People,” Robison is struggling
with what to do about nasty people. (Def. Ex. 1). There
is also a poem titled “Right and Wrong,” which
discusses wrong actions committed for the pleasure of
the actor and how that is “not the world in which we
choose live.” (Def.’s Ex. 1). Additionally, there is a poem
titled “I Get Excited,” which discusses Robison’s wife’s
abuse in the past, and making “humanity all it can be.”
(Def.’s Ex. 1).
Though counsel made clear he was not offering
anything in the book for the truth of the matter
asserted, the judge nonetheless sustained the State’s
objections. (RR4: 67). Without the admission of the
book, Robison then testified that the preparation and
publication of this book helped to develop his thoughts
on abuse clearer in his head. (RR4: 69).
Defense counsel also sought to introduce into
evidence Robison’s second book, HELP US PLEASE:
What YOU Can Do to Eradicate Sexual Abuse and
Child Pornography, in which Robison more directly
addressed the problem of child pornography and child
sexual abuse. (RR4: 85). Robison came up with the idea
for this book prior to his arrest in October of 2011.
(RR4: 82). He wanted to identify solutions in a book to
the “real problem”—children being abused. (RR4: 84).
The State again objected on hearsay grounds, and
defense counsel again asserted that the book was not
being offered for the truth of the matter asserted, and
that it went directly to Robison’s defense of bona fide
educational purpose. (RR4: 86-87). The State responded
the book was too voluminous and that there would be
“problems with confusion of the issues when you start

App. 46
doing a 403 analysis.” (RR4: 88). The judge initially
withheld a ruling, but later denied the admission of
both books into evidence. (RR5: 93).
On direct appeal to Houston’s Fourteenth Court of
Appeals, Robison argued that the trial court reversibly
erred when it refused to admit his two books into
evidence. The court “assum[ed] without deciding that
the book[s] should have been admitted.” Robison, 461
S.W.3d at 199-200, 201. But though Robison’s trial
counsel argued that the books went to the “heart and
soul [of] the affirmative defense” and were “part and
parcel of [his] defense,” and his appellate counsel
argued he “had the right to present a defense under the
Sixth Amendment to the United States Constitution
and Article I, section 10 of the Texas Constitution,” the
court “conclude[d] that any error in the trial court’s
decision to exclude the book[s] was harmless” by
treating the error as non-constitutional. (RR4: 67, 87);
Exhibit B at 9; Robison, 461 S.W.3d at 201 (citing TEX.
R. APP. P. 44.2(b)).
This was hugely significant. Under Rule of
Appellate Procedure 44.2(b), any non-constitutional
“error, defect, irregularity, or variance that does not
affect substantial rights must be disregarded.”
Constitutional error, by contrast, demands reversal on
appeal unless the court determines beyond a
reasonable doubt that the error did not contribute to
the conviction or punishment. TEX. R. APP. P. 44.2(a).
But the court of appeals had no choice in analyzing the
harm under the non-constitutional standard because
Robison’s trial counsel’s general references to the books
as the “heart and soul [of] the affirmative defense,” and

App. 47
“part and parcel of [his] defense,” were not sufficiently
specific to alert the trial judge that the exclusion of the
books would prevent him from exercising his
constitutional right to present a complete defense.
In rejecting Robison’s argument, the Court of
Appeals on the instant appeal stated:
“Contrary to appellant’s suggestions, we would
not have reviewed his evidentiary complaints
under the more rigorous standard for
constitutional error if counsel had worded his
objection differently. ‘The exclusion of a
defendant’s evidence will be constitutional error
only if the evidence forms such a vital portion of
the case that exclusion effectively precludes the
defendant from presenting a defense.’ Potier v.
State, 68 S.W.3d 657, 665 (Tex. Crim. App.
2002). As we explained in the direct appeal,
appellant was not deprived of the right to
present a defense because ‘the jury bona fide
educational purpose.’ See Robison, 461 S.W.3d at
201-02; see also Vasquez v. State, 501 S.W.3d
691, 700 (Tex. App. - Houston [14th Dist.] 2016,
pet. ref’d) (rejecting a similar argument that the
exclusion of evidence was reviewable under the
standard for constitutional error).” (pp. 12-13)
Robison submits that, in finding that the exclusion
of this evidence did not effectively preclude him from
presenting a defense, the Court of Appeals has
improperly applied the caselaw on constitutional error.
See, Potier v. State, 68 S.W.3d 657 (Tex. Crim. App.
2002) (the exclusion of a defendant’s evidence will be
constitutional error only if the evidence forms such a

App. 48
vital portion of the case that exclusion effectively
precludes the defendant from presenting a defense).
Although the Court of Appeals stated the proper test
and quoted Potier, their application of the test was so
exacting and narrow that it permits the exclusion of
crucial defense evidence and allows a trial court to
deny a defendant, like Robison, the right to present a
defense. In fact, the exclusion of these books so
undercut and undermines Robison’s defense that he
was precluded from presenting an effective defense to
these charges. The fact that he was able to present
some version of his defense in some other way does not
change the fact that his constitutional right to present
a defense was violated by the exclusion of this evidence.
This case presents an opportunity for the Court of
Criminal Appeals to set out some clear standards as to
when the exclusion of evidence constitutes
constitutional error. The current caselaw is vague and
insufficiently specific to guide the courts on this
question. This is an issue that needs to be decided by
the Court of Criminal Appeals. T. R. App. P. 66.3(b).
PRAYER FOR RELIEF
Based on the foregoing, Appellant, Mark Douglas
Robison, prays that this Petition for Discretionary
Review be granted.
Respectfully submitted,
/s/ Gary A. Udashen
GARY A. UDASHEN
Bar Card No. 20369590
gau@udashenanton.com

App. 49
BRETT ORDIWAY
STATE BAR NO. 24079086
brett@udashenanton.com
UDASHEN | ANTON
2311 Cedar Springs Road
Suite 250
Dallas, Texas 75201
214-468-8100
214-468-8104 (fax)
Attorneys for Appellant
***
[Certificate of Service and Certificate of Compliance
Omitted in the Printing of this Appendix]

